        AUDIT REPORT

     U.S. Fish and Wildlife Service
      Federal Assistance Grants
 Administered by the State of Montana,
Department of Fish, Wildlife and Parks,
from July 1, 2001, through June 30, 2003




        Report No. R-GR-FWS-0007-2004
                        November 2005
                United States Department of the Interior
        The
                          OFFICE OF INSPECTOR GENERAL
                                       External Audits
                             12030 Sunrise Valley Drive, Suite 230
                                    Reston, Virginia 20191


                                                                              November 21, 2005

                                    AUDIT REPORT

Memorandum

To:        Director
           U.S. Fish and Wildlife Service

From:      Andrew Fedak
           Director of External Audits

Subject:   Final Audit Report on the U.S. Fish and Wildlife Service Federal Assistance
           Grants Administered by the State of Montana, Department of Fish, Wildlife and
           Parks, from July 1, 2001, through June 30, 2003 (No. R-GR-FWS-0007-2004)

       This report presents the results of our audit of costs claimed by the State of Montana,
Department of Fish, Wildlife and Parks (Department), under Federal Assistance grants from the
U.S. Fish and Wildlife Service (FWS). The audit included claims that totaled approximately
$42 million on FWS grants that were open during the State’s fiscal years ended June 30, 2002
and 2003 (see Appendix 1). We also reviewed the Department’s compliance with certain
regulatory and other requirements, including those related to the collection and use of state
hunting and fishing license revenues and the reporting of program income.

        We found that the Department’s personal property and fixed assets inventory listings
were not accurate and/or complete. We also found the Department’s drawdown procedures need
to be revised.

       FWS Region 6 provided a response to a draft of this report on October 25, 2005, which
included a copy of the Department’s October 19, 2005 response to FWS. FWS and the
Department concurred with the findings and recommendations. We summarized the FWS and
Department responses after the recommendations, and added our comments regarding the
responses. The status of the recommendations is summarized in Appendix 3.

        In accordance with the Department Manual (361 DM 1), please provide us with your
written response to the recommendations included in this report by February 20, 2006. Your
response should include information on actions taken or planned, including target dates and titles
of officials responsible for implementation.
       If you have any questions regarding this report, please contact Mr. Chris Krasowski,
Federal Assistance Audit Coordinator, or me at (703) 487-5345.

cc:   Regional Director, Region 6, U.S. Fish and Wildlife Service




                                               2
                                            Introduction

Background
The Pittman-Robertson Wildlife Restoration Act and the Dingell-Johnson Sport Fish Restoration
Act (Acts) 1 authorize FWS to provide Federal Assistance grants to states to enhance their sport
fish and wildlife programs. The Acts provide for FWS to reimburse the states up to
75 percent of the eligible costs incurred under the grants. They also specify that state hunting
and fishing license revenues cannot be used for any purpose other than the administration of the
state’s fish and game department.

Objective, Scope, and Methodology
The objective of our audit was to determine whether the costs incurred and claimed under
Federal Assistance grants to the Department were in accordance with the Acts and related
regulations, FWS guidelines, and the grant agreements; state hunting and fishing license
revenues were used solely for fish and wildlife program activities; and program income was
reported and used following federal regulations.

The audit work at the Department included claims that totaled approximately $42 million on
FWS grants that were open during the State’s fiscal years (SFY) ended June 30, 2002 and 2003
(see Appendix 1). We performed our audit at the Department headquarters in Helena, Montana.
We also visited two regional offices, one area resource office, one fish hatchery, two wildlife
management areas, and eight fishing access areas (see Appendix 2). The audit included steps to
determine whether:

    ¾ The Department’s accounting system was adequate to account for grant receipts and
      disbursements.

    ¾ The direct and indirect costs incurred and the in-kind contributions claimed by the
      Department under Federal Assistance grants were necessary and reasonable, allocable,
      accurate, and eligible for reimbursement.

    ¾ The Department’s hunting and fishing license certifications were based on official State
      records, and procedures used to prepare those certifications were adequate for eliminating
      duplicate license holders.

    ¾ The Department had an adequate system to account for and report license fee revenues,
      and those revenues were used only for the Department’s fish and wildlife programs.



T1 As amended 16 U.S.C. § 669 and 16 U.S.C. § 777, respectively.


                                                       3
   ¾ Controls over real property and equipment acquired with Federal Assistance funds or
     license revenues were adequate to ensure compliance with program requirements.

   ¾ The Department complied with selected grant agreement provisions and requirements of
     the Acts.

   ¾ The State enacted assent legislation in compliance with the Acts.

We performed our audit in accordance with the Government Auditing Standards issued by the
Comptroller General of the United States. Accordingly, we included such tests of records and
other auditing procedures that we considered necessary under the circumstances. Our tests
included an examination of evidence supporting selected expenditures charged by the
Department to the grants, interviews with employees to ensure that personnel costs charged to
the grants were supportable, and a review of the Department’s use of fishing and hunting license
revenues to determine whether the revenues had been used solely for fish and wildlife program
purposes. We did not evaluate the economy, efficiency, or effectiveness of the Department’s
operations.

Prior Audit Coverage
On June 11, 1999, we issued audit report No. 99-E-559, “U.S. Fish and Wildlife Service Federal
Aid Grants to the State of Montana Department of Fish, Wildlife and Parks for the Fiscal Years
ended June 30, 1995 and 1996.” In addition, the State Legislative Audit Division issued
financial and compliance audit reports on the Department’s financial schedules for SFYs 2002
and 2003. We followed up on all significant findings and determined that they had been
resolved prior to our review.




                                               4
                                    Results of Audit
The Department was generally in compliance with applicable regulatory and grant accounting
requirements with respect to the following:

       ¾ Except for the issues discussed in finding B, the Department’s accounting system and
         related internal controls appear adequate to account for grant and license fee receipts
         and disbursements.

       ¾ Direct and indirect costs claimed under the Federal Assistance grant agreements with
         FWS were adequately recorded, supported, and eligible for reimbursement.

       ¾ The State of Montana had adequate assent legislation in place that prohibited the use
         of license fees for any purpose other than the administration of the Department.

However, we identified the following issues:

       A. The Department’s personal property and fixed assets inventories contained
          inaccurate and/or incomplete data.

       B. The Department’s drawdown procedures need to be revised.


A. Property Inventories

According to the Code of Federal Regulations (50 CFR § 80.18(c)), the states are responsible for
“The accountability and control of all assets [funded under the Acts] to assure that they serve the
purpose for which acquired throughout their useful life.” In addition, 50 CFR § 80.4 states that
property purchased with license revenues must be used only for the administration of the State’s
fish and wildlife agency. We found that State and Department procedures and controls for
managing real and personal property were not always followed. As a result, inventory listings
contained inaccurate and/or incomplete data and some items could not be located.

1. Personal Property

The regulations (43 CFR §12.72 (b)) require the states to use, manage, and dispose of equipment
acquired with grant funds in accordance with state laws and procedures. We found that the
Department did not always follow State or Department procedures, and additional controls are
needed.

The Department’s personal property inventory listing as of August 2004 contained 4,376 items
valued at $29.7 million that were purchased with Federal Assistance funds and/or hunting and
fishing license revenues. We tested a sample of 162 items valued at $513,238 that were on the
inventory listing for 6 of the Department’s 140 locations. We found that:


                                                 5
   •   5 items valued at $3,798 were not found, and the responsible officials did not
       know where the items were located.

   •   38 items valued at $83,597 were not at the locations shown on the inventory
       listing. Responsible officials said these items were off-site (e.g., were being used
       in the field at the time of our visit or had been loaned or transferred to another
       location). The responsible official did not submit transfer forms to the Property
       Section to update the inventory listing, in accordance with guidance in the
       Department’s Asset Management Desk Manual (Desk Manual), or use hand
       receipts or sign out/sign in logs to establish accountability for these items (the
       Desk Manual did not address the use of sign out/sign in logs or hand receipts).

   •   15 items with an estimated value of $38,863 that we found at the sites visited
       were not on the inventory list. The responsible individuals had not prepared the
       transfer forms and/or had not submitted the necessary forms for updating the
       inventory when new or transferred items were received, in accordance with the
       guidance in the Desk Manual.

   •   13 items valued at $37,443 did not have a State identification tag attached.
       Although inventory tags had been assigned to these items when they were put into
       service, the tags were not permanently attached to the equipment, as required by
       the Desk Manual.

   •   5 items valued at $28,278 were not needed and should have been transferred, sold,
       or discarded. The responsible officials had not returned the items to the
       Department’s Property Section along with a transfer or surplus form in
       accordance with the guidance in the Desk Manual.

Our interviews with the field managers at the sites indicated that some managers did not
appear to have a clear understanding of inventory controls and procedures. We believe
that the lack of a clear description in the Desk Manual of the role of field managers in the
property management process contributed to this condition.

2. Fixed Assets

The Department’s fixed assets inventory did not include the assets related to two completed
construction projects (Cooney State Park Capital Improvements and Brewery Flats Fishing
Access Site). According to the Montana Operations Manual, upon completion of a construction
project, the asset should be recorded in the proper fixed asset cost account when the Project
Completion Report has been received or when the facility has been occupied, whichever comes
first. According to Department officials, these construction projects had not been added to the
inventory because the project completion reports did not contain all required information such as
the items to be capitalized and their cost.




                                                 6
Complete and accurate inventory records are essential for effectively managing property. The
lack of adequate inventory records hinders the Department’s ability to ensure that its property is
properly safeguarded and accounted for, that assets purchased with Federal Assistance funds are
used for the purpose for which they were acquired, and that assets acquired with license funds
are used only for the Department’s fish and wildlife programs.

       Recommendations
       We recommend that FWS require the Department to:

       1. Review and take appropriate corrective action on the personal property
       exceptions.

       2. Revise the Asset Management Desk Manual to (a) include clear
       descriptions of the roles and responsibilities of field managers and all
       other employees involved in property management and (b) require the use
       of sign in/sign out logs or hand receipts for property that is loaned or
       otherwise temporarily removed from the assigned locations.

       3. Develop procedures and provide training on property management to all employees
       who are responsible for property management and maintaining property inventories.

       4. Develop procedures to ensure that fixed assets related to construction projects are
       added to the fixed asset inventory when the project is complete or the facility is occupied.
       The fixed assets related to the two construction project identified in our review should be
       added to the inventory.

       FWS Response

       FWS stated that it concurred with the findings and recommendations and that actions
       described in the Department’s draft response would be incorporated into the corrective
       action plan.

       Department Response

       The Department concurred with all four recommendations and indicated that the property
       section is (1) following up on all personal property exceptions, (2) revising their Asset
       Management Desk Manual to provide clear descriptions of the roles and responsibilities
       of parties involved in property management, (3) providing training on property
       management, and (4) establishing procedures to identify construction projects that are
       completed and add them on the fixed asset inventory. However, the response did not
       specifically address recommendation 2(b) regarding the use of sign in/sign out logs.




                                                7
        OIG Comments

        While FWS and the Department concurred with the findings and recommendations,
        additional information is needed concerning the actions taken or planned to implement
        the recommendations. This information should be included in the corrective action plan.

B. Drawdown Procedures
In June 1999, the State of Montana entered into an agreement with the United States Treasury
(Agreement) pursuant to the Cash Management Improvement Act of 1990, as amended. 2 The
Agreement sets forth the funding techniques to be used by Montana for its major Federal
Assistance programs. The Agreement’s provisions 3 were limited to the major federal programs
identified in the Agreement, which included the Sport Fish and Wildlife Restoration programs.
We found that the Department did not fully comply with the provisions in the Agreement.

The Department used the Statewide Accounting, Budgeting, and Human Resources System
(SABHRS) to account for grant costs. For accounting purposes, the Department grouped the
Wildlife Restoration, Sport Fish Restoration, and Threatened and Endangered Species program
grants into a single fund. Because SABHRS does not provide cost information at the grant level,
the Department maintained spreadsheets to determine the appropriate amount to be drawn down
for each grant.

The Department performed three types of drawdowns: daily 4 , monthly, and end-of-grant. The
amount and timing of the daily drawdown was based on the federal share of unreimbursed cash
transactions recorded in the fund. The Department did not charge each individual grant for its
share of costs at the time of the daily drawdowns. Instead, the entire drawdown amount was
alternately charged to one of two grants, W-154-R or F-113-R, the largest grants under the
Wildlife Restoration and Sport Fish Restoration programs.

At the end of each month, the Department extracted expenditure and revenue data from
SABHRS and computed the unreimbursed expenditures (including indirect costs) for each grant.
Using this data, the Department then made an “adjustment drawdown,” reducing the charges to
the two grants and adjusting the charges for all grants to their actual costs. Consequently, the
daily drawdowns resulted in the Department’s reimbursement for costs associated with all grants
under the three programs but charged to only two grants until the month-end adjustment.
According to Department officials, this method was used because the time and expense of
computing each grant’s share at the time of each daily drawdown would be prohibitive.

We concluded that the Department’s drawdown procedures did not comply with the Agreement
in two respects. Paragraph 6.3 of the Agreement identifies the funding techniques for each of the
programs regarding the timing of drawdowns for different cost categories (e.g., payroll, vendor

2
  The primary goal of the Cash Management Improvement Act is to improve the efficiency and effectiveness of
funds transfers between the federal government and the states.
3
  Several provisions address the amount and timing of federal reimbursement for different types of payments made
by the State (e.g., personnel, administrative costs, and other payments).
4
  The Department usually performed daily drawdowns every second or third business day.

                                                        8
payments). Because the Agreement specified different funding techniques for different
programs, it appears that the Agreement required the Department to charge the amounts drawn
down to the respective federal programs that incurred the costs.

Also, since the Threatened and Endangered Species Program was not included in the Agreement
and, as such, no funding techniques were established for this program, it was not appropriate to
include it in the Department’s drawdowns for the Sport Fish and Wildlife Restoration programs.

       Recommendations:
       We recommend that FWS:

       1. Ensure that the Department modifies SABHRS to provide summary information on
       the total unreimbursed costs for each Restoration program, and charge the programs only
       for their respective shares of each daily drawdown.

       2. Ensure that the Department discontinues including the Threatened and Endangered
       Species program in its drawdown computations for the Restoration programs.

       FWS Response

       FWS stated that it concurred with the finding and recommendations and that actions
       described in the Department’s draft response would be incorporated into the corrective
       action plan.

       Department Response

       The Department concurred with the recommendations and indicated that it revised
       procedures and modified reports from SABHRS starting July 1, 2005, to separate draw
       down requests between Sport Fish and Wildlife Restoration programs, and discontinue
       including Threatened and Endangered Species program draw down requests from the
       Restoration programs.

       OIG Comments

       While FWS and the Department concurred with the findings and recommendations,
       additional information is needed concerning the actions taken or planned to implement
       the recommendations. This information should be provided in the corrective action plan.




                                               9
                                           Appendix 1

MONTANA DEPARTMENT OF FISH, WILDLIFE AND PARKS
   FINANCIAL SUMMARY OF REVIEW COVERAGE
       JULY 1, 2001 THROUGH JUNE 30, 2003

Grant No.           Grant Amount     Claimed Costs

F-22-L-20                       $0               $0
F-51-D-13                2,019,374        1,985,959
F-51-D-14                2,117,355        2,085,697
F-61-E-13                  507,552          507,150
F-61-E-14                  502,091          502,091
F-63-B-4                   240,000          240,000
F-66-B-2                   375,000          318,029
F-68-B-5                    10,708           10,708
F-68-B-6                    11,635           11,635
F-68-B-7                    11,434                0
F-75-B-5                    40,000           40,000
F-82-D-2                 3,727,190        3,705,456
F-85-R-8                    20,000           20,000
F-89-R-8                     9,454            8,419
F-89-R-9                     9,290            9,290
F-95-B-6                   230,034          206,472
F-95-B-7                   239,933          211,914
F-98-D-1                   337,500          327,820
F-106-B-2                  165,475          105,077
F-107-D-2                   55,000           49,891
F-109-D-1                   89,500           74,213
F-110-B-1                   35,880           35,880
F-111-D-1                   83,050           83,050
F-112-B-1                  600,000          598,562
F-113-R-2                3,983,768        3,822,189
F-113-R-3                3,989,238        3,940,930
F-114-B-1                  851,732          824,841
F-114-B-2                   69,325                0
F-115-B-1                  200,000           24,656
F-116-B-1                  247,136          247,136
F-117-D-1                  100,000           54,897
FW-8-R-1                 1,842,988        1,842,988
FW-8-R-2                 4,166,830        5,430,383
W-133-E-31                 479,231          478,615
W-133-E-32                 100,000          100,000
W-133-E-33                 395,650          394,600
W-154-R-2                6,846,701        6,769,742
W-154-R-3                6,903,798        6,898,916
                       $41,613,850      $41,967,206




                      10
                                                      Appendix 2


MONTANA DEPARTMENT OF FISH, WILDLIFE AND PARKS
               SITES VISITED


               Regions/Area Resource Offices
                  Region 3, Bozeman, MT
                  Region 4, Great Falls, MT
            Area Resource Office, Lewistown, MT


                        Fish Hatchery
          Big Springs Trout Hatchery, Lewistown, MT


                Wildlife Management Areas
            Bear Creek Wildlife Management Area
             Beartooth Wildlife Management Area


                   Fishing Access Areas
                Big Bend Fishing Access Site
              Brewery Flats Fishing Access Site
               Carter Ferry Fishing Access Site
                  Dunes Fishing Access Site
                Ennis Lake Fishing Access Site
              Harrison Lake Fishing Access Site
               Ulm Bridge Fishing Access Site
               York Bridge Fishing Access Site




                             11
                                                                                   Appendix 3


MONTANA DEPARTMENT OF FISH, WILDLIFE AND PARKS
              STATUS OF AUDIT FINDINGS
               AND RECOMMENDATIONS


Recommendations                Status                            Action Required

A.1, A.2, A.3, A.4,   Management Concurs;           Provide a corrective action plan that
B.1, and B.2          Additional Information        identifies the actions taken or planned to
                      Needed                        resolve the finding and implement the
                                                    recommendations. The plan should also
                                                    include the target date and the official
                                                    responsible for implementation of each
                                                    recommendation. Any recommendations that
                                                    are not implemented at the end of 90 days
                                                    (after February 20, 2006) will be referred to
                                                    the Assistant Secretary for Policy,
                                                    Management and Budget for resolution
                                                    and/or tracking of implementation.




                                               12
  Report Fraud, Waste, Abuse,
     and Mismanagement
             Fraud, waste, and abuse in government
              concerns everyone: Office of Inspector
                    General staff, Departmental
              employees, and the general public. We
                 actively solicit allegations of any
             inefficient and wasteful practices, fraud,
           and abuse related to Departmental or Insular
           Area programs and operations. You can report
                allegations to us in several ways.



By Mail:                 U.S. Department of the Interior
                         Office of Inspector General
                         Mail Stop 5341 MIB
                         1849 C Street, NW
                         Washington, D.C. 20240



By Phone:                24-Hour Toll Free          800-424-5081
                         Washington Metro Area      202-208-5300



By Fax:                  202-208-6081




By Internet:             www.oig.doi.gov
